No.19-1108

IN THE

~upreme Court of tbe Wnfteb ~tate,
DERAY MCKESSON,
V.

Petitioner,

JOHN DOE SMITH, ET AL.,

Respondents.
On Petition for a Writ of Certiorari to the United States
Court of Appeals for the Fifth Circuit

BRIEF OF RESPONDENT
BLACK LIVES MATTER GLOBAL NETWORK, INC.
IN SUPPORT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the document contains
7,397 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 9, 2020.

Colin Casey Hog
Wilson-Epes Printing Co., Inc.

